<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                   
                         [H.A.S.C. No. 115-76]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                     DEPARTMENT OF THE NAVY FISCAL

                      YEAR 2019 BUDGET REQUEST FOR

                     SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                             MARCH 6, 2018

                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-414                       WASHINGTON : 2019   





             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development and Acquisition; LtGen Robert S. Walsh, 
  USMC, Deputy Commandant, Combat Development and Integration, 
  U.S. Marine Corps; and VADM William R. Merz, USN, Deputy Chief 
  of Naval Operations for Warfare Systems, U.S. Navy.............     4

                                APPENDIX

Prepared Statements:

    Geurts, Hon. James F., joint with LtGen Robert S. Walsh and 
      VADM William R. Merz.......................................    37
    Wittman, Hon. Robert J.......................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Hunter...................................................    63
    Mr. McEachin.................................................    65


DEPARTMENT OF THE NAVY FISCAL YEAR 2019 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                            Washington, DC, Tuesday, March 6, 2018.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. I am going to call to order the House Armed 
Services Committee, Subcommittee on Seapower and Projection 
Forces. And today, we are going meet to discuss the Department 
of the Navy's fiscal year 2019 budget request. Appearing before 
us to discuss this important topic are three esteemed Navy 
witnesses: Honorable James Geurts, Assistant Secretary of the 
Navy, Research, Development, and Acquisition; Vice Admiral 
William R. Merz, Deputy Chief of Naval Operations for Warfare 
Systems; and Lieutenant General Robert S. Walsh, Deputy 
Commandant for Combat Development and Integration.
    I want to thank all of you for your service as well as for 
appearing before our subcommittee today on the fiscal year 2019 
budget request.
    Concurrent with the budget request last month, the 
Secretary of the Navy also released a 30-year shipbuilding plan 
that addresses new capabilities and offers a plan to 
recapitalize the current force structure. While I am pleased 
that the plan was timely, I am concerned that it does not 
properly advocate for the Navy the Nation needs. In fact, on 
page 8 of the plan, it references the 2016 Force Structure 
Assessment in a table, clearly identifying a need for 355 
ships. Yet on page 12, the 30-year shipbuilding plan only 
reaches 342 ships by 2039.
    And we have had some great conversations about the context 
of that, and understanding Congress' role, it is still, I 
think, critical to make sure that we are on the same page with 
the 355 number. Critical shortfalls in aircraft carriers, large 
deck amphibs [amphibious warships], and attack submarines are 
debilitating to our national security and only serve to 
embolden our potential adversaries.
    I think that the Navy sometimes misses the strategic 
imperative and national urgency associated with the message our 
Nation needs to send to the world when an inadequate 
shipbuilding budget is proposed. Shipbuilding is a sign of our 
Nation's resolve, and a weak shipbuilding request is carefully 
watched by our adversaries.
    We need to significantly improve our Navy shipbuilding to 
meet the President's objective of a 355-ship Navy. As I spoke 
of the other day, people get sick of hearing it from me, but 
$26.2 billion and 13 ships is the floor will be a refrain that 
you will constantly hear as to the needs for this Nation.
    As to the Marine Corps, I am pleased this committee 
supported the authorization of another San Antonio-class 
amphibious ship in the fiscal year 2018 NDAA [National Defense 
Authorization Act]. While I continue to hold some concerns with 
respect to conducting amphibious operations in a contested 
environment, I understand that the Marine Corps is actively 
seeking new strategies to overcome these challenges through 
exercises such as Bold Alligator, and I applaud these efforts.
    Lieutenant General Walsh, you and I talked extensively 
about that, and I appreciate the innovation and creativity the 
Marine Corps is showing in looking at how to operate in those 
contested environments to continue do to forcible entry 
amphibious operations; those things are key.
    Our Marine Corps was created to be an amphibious force; 
therefore, we must rapidly insert innovation into the 
amphibious warfare plan to ensure we are successful in future 
conflict. Additionally, I am concerned about the Navy's 
enabling forces, and specifically, the surge sealift forces. 
Our inability to provide a more responsive surge sealift will 
place soldiers' and Marines' lives at risk in a future 
conflict.
    If you can't get to the battle in time, you need to fight 
your way in. We have seen the casualties of such a strategy in 
prior conflict. We do have a better way to support the 
warfighter. I am reminded of Winston Churchill, who, at the 
worst times of World War II, remarked, ``I never worry about 
action, but only inaction.''
    Ladies and gentlemen, we have had 70 years of relative 
global peace with the absence of a major world war. This global 
peace was secured by the blood and sweat of our greatest 
generation. Our Navy's inability to act and embrace a bold 
shipbuilding vision will embolden our adversaries and risks the 
global peace that our fathers secured for our future.
    Our witnesses today are here today because they are the 
best our Nation has to create the bold vision that our Nation 
needs. Gentlemen, it is time to act and establish a sustainable 
upward trajectory for our Navy, and I am confident in your 
ability to do so.
    I would now like to turn to our ranking member, Joe 
Courtney, for any remarks that he may have. And, Joe, before 
you begin, I want to thank you for your leadership and what you 
have done with us to make sure that this vision for the Navy 
not only gets put in place, but is sustainable. So thanks so 
much for your leadership.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Right. Well, thank you, Mr. Chairman, and 
thank you to the witnesses for being here today. I want to 
particularly congratulate the new Assistant Secretary of the 
Navy, James Geurts. He was confirmed recently, and I can 
personally attest to the energetic start that you have begun 
with your tenure. We had a great visit up to Groton a couple 
weeks ago to the sub base and to the shipyard Electric Boat. So 
we look forward to working with you, and, obviously, Admiral 
Merz and Lieutenant General Walsh.
    In December 2016, the Department of the Navy produced a new 
Force Structure Assessment which reviewed and validated 
military requirements and determined that the Navy our Nation 
needs is a 355-ship Navy. Listening to this clear demand signal 
and responding to a 2018 budget request that fell far short of 
this goal, this subcommittee ultimately authorized nearly 
double the number of battle force and non-battle force ships in 
the 2018 defense authorization bill signed into law last 
December.
    And, again, I want to congratulate my colleague, Mr. 
Wittman, because again, this subcommittee led the way in terms 
of really creating that new goal and standard that was 
reflected in the NDAA. Compared to the budget that we started 
with last year, the President's fiscal year 2019 budget request 
for seapower represents a move in the right direction. This 
budget proposes to procure 10 battle force ships in fiscal year 
2019, 8 non-battle force ships, and 54 battle force ships over 
the next 5 years, 11 more than was planned in the fiscal year 
2018 budget. Obviously, that is very positive movement.
    In addition, the budget proposes a series of life 
extensions for ships and submarines to add to our force 
structure and to get the most use out of our existing 
platforms. However, this is still not a plan to achieve a 355-
ship Navy, it is a plan to achieve a 335-ship Navy in 2048. As 
the 30-year shipbuilding plan clearly shows, this budget does 
not achieve the minimum Navy force size that the Navy says it 
needs until the 2050s.
    Looking closely at the budget and the shipbuilding plan, it 
is clear that there is substantial meat left on the bone where 
industrial-based capacity does exist to add further ships and 
capabilities to the fleet. One glaring example of this 
opportunity is the undersea fleet. While the budget reflects a 
sustained two-a-year construction rate for Virginia-class 
submarines, at this rate, the force would not achieve the 66-
boat level that was called for in the Force Structure 
Assessment until 2048, 30 years from now.
    And, again, we heard from Admiral Harris just about a week 
ago about the fact that, you know, the demand signal for 
submarines in the Pacific area is barely able to keep up with 
what is out there, about 50 percent, and we are projected to 
see that dip even further, closer to 40 in the entire fleet. So 
we have got to do better and move faster.
    The 30-year shipbuilding plan identifies specific 
opportunities in 2022 and 2023, where there is industrial-based 
capacity for a third submarine in each of those years, and 
within the next 5-year block contract where negotiations are 
occurring right now between the Navy and industry. As I said, 
led by this panel on a bipartisan basis, Congress has already 
demonstrated its strong support for expanding the attack 
submarine production line. Specifically, we provided the 
authority needed to go beyond two subs a year in the next 5-
year block contract.
    I urge the Navy to take advantage of this opportunity, and 
others like it, that provide a great opportunity in the years 
ahead to add on to the plan presented to us here today. 
Achieving a larger fleet will take more than any one budget 
year, and will take more than just building new ships. We need 
to take a comprehensive approach that includes new 
construction, extension, and modernization of existing ships, 
repairing our ships on time and without delay, and 
incorporating new capabilities into the current and future 
ships wherever possible.
    I look forward to discussing how the 2019 budget achieves 
these goals and where we can work together on this panel on a 
bipartisan basis to improve and expand on it. Thank you, again, 
to our witnesses, and I look forward to your testimony.
    Mr. Wittman. Joe, thank you so much, we appreciate it. Now 
we are going to turn to our witnesses, and I understand, Mr. 
Geurts, that you will give the opening statement for all three, 
so the floor is yours.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION; LTGEN ROBERT S. 
    WALSH, USMC, DEPUTY COMMANDANT, COMBAT DEVELOPMENT AND 
INTEGRATION, U.S. MARINE CORPS; AND VADM WILLIAM R. MERZ, USN, 
DEPUTY CHIEF OF NAVAL OPERATIONS FOR WARFARE SYSTEMS, U.S. NAVY

    Secretary Geurts. Thank you, sir. Chairman Wittman, Ranking 
Member Courtney, distinguished members of the subcommittee, 
thanks for the opportunity to appear before you today and 
discuss the Department of the Navy acquisition program.
    Mr. Wittman. Mr. Geurts, if I can get you to just real 
quick just to put the microphone in front of you.
    Secretary Geurts. A little better than that?
    Mr. Wittman. Perfect. Perfect.
    Secretary Geurts. All right. I am joined today by 
Lieutenant General Bob Walsh here, he is a Deputy Commandant 
for Combat Development and Integration, and Vice Admiral Bill 
Merz, Deputy Chief of Naval Operations for Warfare Systems. 
With your permission, I intend to provide a brief joint 
statement and submit our opening statement for the record.
    First, I would like to thank Congress for your support for 
the Bipartisan Budget Act of 2018. Enactment of this 
legislation will help provide the predictability and stability 
in funding that is critical to our success and will support 
building the Navy the Nation needs and Marine operating 
concept, the maritime components of the National Defense 
Strategy [NDS].
    Coming out of an era of shrinking resources and increasing 
operations that drove exceedingly difficult choices, we feel 
your efforts for putting us on a course for readiness, 
recovery, and growing the fleet were substantial and 
significant. Thank you.
    Secondly, I would like to thank this subcommittee 
specifically for your leadership and steadfast support of the 
Department of the Navy shipbuilding, not only support of our 
fiscal request in 2018, but for the increasing resources you 
added to our request. Our sailors and Marines are better off 
for the great support they get from you. Thank you.
    The 2018 Defense Authorization Act supports the Navy's 
requirement for 355 battle force ships. The 2019 President's 
budget request builds towards this larger and more lethal 
force, and reflects the continued commitment to produce a 355-
ship Navy with the correct mix of ships, with increasing values 
of speed, lethality, stealth, information, design margin, and 
modernization as key attributes to ensure we are providing the 
warfighting commanders capability in an increasingly contested 
environment.
    It similarly supports the Marine Corps need for a more 
lethal, resilient force able to contribute to all domain 
access, sea control, power projection, maritime security, and 
deterrence in any environment.
    As detailed in the 2018 National Security Strategy and 
National Defense Strategy, it is imperative that we 
continuously adapt to the emerging security environment to 
retain and expand our competitive advantage, and do so with a 
sense of urgency. This requires the right balance of readiness, 
capability, and capacity, as well as budget stability and 
predictability. It also requires a constant focus on and 
partnership with the industrial base. They are a key element to 
our national security.
    Together we can ensure our military's capability, capacity, 
and readiness, can continue to deliver superior naval power 
around the world, both today and tomorrow. Thank you for the 
opportunity to appear before you, and we look forward to 
answering your questions.
    [The joint prepared statement of Secretary Geurts, General 
Walsh, and Admiral Merz can be found in the Appendix on page 
37.]
    Mr. Wittman. Thank you, Deputy Secretary Geurts. Thanks 
again for all of you all joining us today, and thanks for your 
service. We will begin questions now. I am going to turn to Mr. 
Conaway to open, and then we will go to Ms. Bordallo. Very 
good.
    Mr. Conaway. Thank you, Mr. Chairman. Gentleman, thank you 
for being here. As Rambo as my good colleague from Connecticut 
is about submarines, I feel the same way about carriers. 
General Richardson has said that if we would try to go to a 3- 
to 4-year increment between carriers, that would get us to a 
much better position. The budget does not do that. And we are 
still in the 5-year between carriers. Can you speak to us about 
what is being considered to try to catch up with respect to the 
carrier demand?
    Secretary Geurts. Yes, sir. I will start out somewhat with 
the near term, and then I will turn to Admiral Merz for a 
little bit of the longer-term perspective.
    In the near term, as you know, we are producing Ford 
carriers. Our near-term focus is delivering those carriers on 
time and within the budget cap. A near-term opportunity that we 
are looking at is can we combine the buys for CVN 80 and 81, 
saving money and potentially accelerating some of that 
capability. We are studying that now. We are not at the point 
yet where I am ready to put that on the table. We are working 
with the contractor to sharpen the estimates and ensure we 
really understand what that opportunity provides to us.
    I will stay in communication here with the subcommittee as 
we work through that, so that you can understand what those 
savings are, because to capitalize that will take some 
authority from this committee, and we look forward to working 
with you on that.
    That is on the near term. If--okay, Admiral Merz can 
address the longer term of that.
    Admiral Merz. Yes, sir. So the carrier procurement profile 
actually achieves its objective the slowest of all the ship 
classes in the shipbuilding plan. Secretary Geurts outlined the 
multiyear that we are trying to secure, and we are also looking 
at reducing the centers.
    Within the shipbuilding plan, we lay out the program of 
record, but we also put out a timeline on top of that that 
shows what it would look like on 3\1/2\-year centers. A couple 
of reasons for that, one is to demonstrate our commitment to 
trying to reach that 3\1/2\-year centers. I will tell you, that 
is probably not aggressive enough.
    Right now, on the 4-year centers, we achieve the 12 in the 
2060 timeframe. If we go to the 3\1/2\, that still only moves 
it up to the early 2050s. So we are aggressively looking at 
that. Frankly, we just didn't get there in time for the PRES 
BUD 2019 [President's budget for fiscal year 2019], but that 
work is ongoing, and you are going to see the fruits of that 
effort in the next shipbuilding plan that we are putting 
together already started.
    Mr. Conaway. All right. Well, I appreciate that. My other 
cause is auditing--Department of Defense starts with auditing 
the Navy as well. The Marine Corps has done a terrific job of 
leading the way. Can you talk to us about the requested 
resources, is that being fully funded for the auditors and 
whatever money needs to be done to fix the things that are a 
problem, but to make sure that I have got your commitment, Mr. 
Geurts, leading from the top on getting the Navy--Department of 
Navy and Marine Corps audited?
    Secretary Geurts. Yeah, absolutely, sir. That is certainly 
a priority of the Secretary, it is a priority of me. I don't--I 
am not aware of any resource issues to get there. Obviously, a 
lot of hard work, and it is not just the financial piece of the 
audit, it is auditing all our processes, property 
accountability and all of that. I am confident that as we work 
through that, we will find issues, and then those issues are 
opportunities for us to work through, correct things, and 
again, give ourselves and the American people confidence. We 
have got transparent, credible, and accountable processes.
    Mr. Conaway. One thing I would--I am a CPA [certified 
public accountant] by profession, by background; stealing folks 
from other agencies who have already been through this might be 
particularly helpful. I know David Norquist is that exact 
example. But the more people you can get who have done it will 
get you there quicker, so I would encourage you to be 
aggressively recruiting from folks who have already done it.
    In our briefing notes, we talk about truncating the 
Tomahawk program, and can you walk us through briefly the 
ammunition missile issue, that we are going to have enough 
stuff to shoot at people that we need to have?
    Admiral Merz. Yes, sir. I will address the requirements on 
the Tomahawk missile side. So we are addressing our entire 
family of systems and missiles comprehensively, and Tomahawk is 
a piece of that, arguably one of the most important pieces of 
it; it is the missile we have used the most over the last 
couple decades. So we are in a--we are in the process of 
transitioning to the next generation Tomahawk. So we are 
tailing off the production, we have what we need on the land 
attack side. The next-generation Tomahawk will be both a 
surface strike and a land attack with the name of the maritime 
strike Tomahawk.
    We are fielding that in the early 2020s. We are looking to 
accelerate that effort, it will be a multi-domain, multi-
mission Tomahawk missile, much improved over its predecessor.
    Mr. Conaway. At a same range and payload?
    Admiral Merz. Same range, same payload. More targets.
    Mr. Conaway. Thank you. I yield back. Thank you very much.
    Mr. Wittman. Thank you, Mr. Conaway. I do want to just do a 
quick follow-up, Mr. Geurts, with one of Mr. Conaway's 
questions. How much do you expect the Navy to be able to save 
in buying two aircraft carriers at a time? So if you block-buy 
80 and 81, how much do you expect, or would you say is a 
reasonable expectation? I know you are trying to get down to 
the real details, not just the shipbuilding costs, but the 
system costs. But give us an overall expected savings with that 
in going to buying two aircraft carriers at a time?
    Secretary Geurts. Yes, sir. I would point back historically 
when we have done this previously in the Nimitz class, it was 
on the order of a 10 percent savings, which is a fairly large 
number on a carrier buy. The exact savings for this and why we 
are studying it, we are kind of halfway through the first 
carrier, so we have got to figure out exactly what future 
savings are available there.
    I think the other thing that is important is both from a--
not just dollar perspective, but level loading the work force, 
and if in the future we want to press to a closer, you know, 
time between carrier buys, getting costs out of the carrier. 
And so, if you know you are doing two carriers, your return on 
investment for some of these initiatives, that equation 
changes, and our hope would be we could get costs out so that 
future carriers would also benefit.
    We are working closely with the contractor to make sure we 
are sharpening the pencils and getting the best deal for the 
taxpayer on that.
    Mr. Wittman. Gotcha. So that would be, roughly, if we 
purchase two at a time at $12.5 billion apiece, it would be 
roughly $2.5 billion of minimal expected savings if we bought 
two at a time?
    Secretary Geurts. Yes, sir. It depends on when we implement 
it. I would say somewhere between, certainly over $1 billion, 
up to $2.5 billion, and then if you were to do a follow-on 
carrier buy and we were able to take cost out of the carriers, 
as we expect, you would get follow-on savings to those future 
carriers.
    Mr. Wittman. Very good. Thank you. Now, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Assistant 
Secretary Geurts, and General Walsh, and of course, Vice 
Admiral Merz, I want to thank you all for your service and 
being here this afternoon.
    My question is for the Assistant Secretary Geurts. The 
fiscal year 2018 NDAA directed the Secretary of the Navy to 
complete a business case analysis for depot-level ship repair 
in the Western Pacific region. Admiral Harris, in his 2014 
operational needs statement, stated, and I quote, ``Dry docking 
on Guam is a critical component of depot-level ship repair. The 
capability must be maintained and regularly exercised so that 
capability and expertise are available to support ships of the 
7th Fleet, both in peace and in war,'' unquote.
    I appreciate that you just recently assumed your 
responsibilities as the Navy's Assistant Secretary for 
Research, Development, and Acquisition, and I hope that you 
will bring a fresh perspective to my concerns regarding the 
level of ship repair capability in the Western Pacific.
    Specifically, I am concerned with mixed messages that I 
have received. On one hand, there appears to be a significant 
maintenance backlog for our fleet, but when asked here in this 
committee whether current depot-level ship repair is 
insufficient to meet peacetime and contingency requirements in 
the Pacific, I have been told that the Navy does not agree 
there is insufficient capacity.
    With 60 percent of our naval fleet operating in the 
Pacific, and Hawaii's depot-level ship repair already--already 
exceeding capacity, what is the Navy's plan for depot-level 
ship repair in the Western Pacific in the event of foreign 
ports currently used? And these are currently used that are not 
available, and how does the Navy plan on funding this plan?
    Secretary Geurts. Yes, ma'am. Thank you for the question. I 
would say, overall, I would agree with the combatant commander 
that, obviously, having maintenance and repair capability, both 
in peace and in war, is critical and critical in a Pacific area 
of operation.
    In our previous studies, as I understand them, before I 
arrived in this position, I understand that business case did 
not support having a dedicated dry-dock facility there at Guam, 
but as you indicated, we are doing another look at that 
analysis this year to report out per the requirements in the 
NDAA.
    You have my personal commitment that I will take a look at 
that, and ensure that it is a balanced report, and then we will 
look at all the facts and factors, and provide a recommendation 
to the committee with that report.
    Ms. Bordallo. Well, thank you very much for that 
commitment. And how about the funding on the plan?
    Secretary Geurts. Ma'am, I don't--I believe the plan is--
the report is funded, I----
    Ms. Bordallo. Funding will be part of it?
    Secretary Geurts. Yeah. As part of that report, I would 
expect if we had recommendations, we would include the funding 
to implement those recommendations as part of that plan, as 
well as considered in our PB [President's budget] 2020 budget 
buildup, and compete that amongst all of our other requirements 
in our 2020 budget.
    Ms. Bordallo. Thank you very much, Mr. Secretary. And I 
just want you to know the people of Guam are concerned about 
this and want to be very secure.
    Secretary Geurts. Yes, ma'am. And I will look forward 
actually to getting out there personally and getting some eyes 
on their----
    Ms. Bordallo. Good. Good. You will love it when you come.
    Secretary Geurts [continuing]. Out there and understand the 
situation.
    Mr. Bordallo. Thank you very much. And I yield back, Mr. 
Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo. We will now go to Mr. 
Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here today, but just as important, we thank you for 
your service to our country, we appreciate it. Mr. Geurts, you 
made a very important statement in your opening remarks, you 
said that the industrial base is a key element of the Navy's 
plan, and I appreciate your saying that because it is so true.
    I want to talk to you about one particular class of ships. 
Now, I am going to call them the small surface combatants, 
because as you know, we are transitioning from the LCS 
[littoral combat ship] to the frigate. So when I say small 
surface combatant, we are talking about all of them. The plan 
this year calls for one.
    Now, both shipyards who presently build the LCS have 
released statements that the one requested ship for fiscal year 
2019 will lead to a gap in production that will negatively 
impact their yards, which will result both in job losses at the 
yards and increased cost to the Navy.
    Last year, Admiral Neagley, who is a program executive 
officer for LCS, testified before this committee that the 
optimal sustaining rate for both shipyards is a total of three 
ships--not one, three--per year, which is where we have 
authorized and appropriated for the last few years. Both the 
industrial base and the Navy have said that one ship is not 
enough to maintain the industrial base and current cost 
efficiencies.
    Would you agree that one ship will result in a loss of 
trained workforce and increased costs on ships?
    Secretary Geurts. Yes, sir. And, again, as we discussed 
yesterday, the industrial base is a critical element of our 
national security, and we look at that closely across all of 
our different shipyards. Certainly, one ship a year is not near 
the optimal rate. When we look at the current work out there, 
we have 18 ships in construction, we believe 3 ships in 2018, 
and 1 ship in 2019.
    And so, I look at we will have four ships over the next 2 
years, certainly not at the optimal level. I believe it is at 
the minimum sustained level, so that we will not completely 
lose the workforce or the work yard, but I do acknowledge that 
will probably cause some work turn-down in those yards as we 
build back into frigate and execute that down-select.
    Mr. Byrne. And you and I have discussed, I was involved in 
helping to build up that workforce, the shipyard in Mobile, 
these workers at that level of expertise, and certainly at that 
level of experience, it takes a very long time to get there. So 
it is in the interest of the Navy to have--to maintain that 
level of expertise and the shipyard workers, and we are going 
to have some pretty substantial losses at one ship.
    Now, the problem here is--and I think you and I discussed 
this yesterday. The problem here is that we were supposed to 
transition to the frigate this year. The Navy wasn't ready. So 
the present plan is transition next year. So we have got two 
shipyards affected here. This is after years of shipyards--
numbers of shipyards drop in the United States. So you, the 
Navy, and the Congress, we've got to figure out together we can 
work so that these shipyards don't crumble on us, because 
without that, you will not have an effective competition for 
the frigate. I mean, I think we all agree on that.
    So I guess I am asking, is the Navy willing to accept the 
risk that these two yards will be effectively crippled before 
that frigate contract is awarded?
    Secretary Geurts. Sir, obviously, we are tracking that 
closely. And I would say, in that shipyard and across all our 
shipyards, the amazing quality--we are getting ships out of the 
shipyards now, to your point of having a skilled workforce, 
with quality and in-service scores that we haven't seen over a 
long time. And so that is a very precious resource, we have to 
watch that closely.
    I don't believe that will threaten the competition itself, 
but obviously, not operating at optimal production rates will 
cause some concerns to workers, and we will have to spin that 
workforce--that workforce will have to spin back up as we make 
this transition.
    Mr. Byrne. Well, you used the term ``spin back up.'' And it 
is not ``spin back up.'' It is long periods of time to get 
large numbers of people back to a program, get their level of 
experience back up to the optimal level, it will take years. 
And whereas some large shipyards might be able to survive that, 
these two shipyards are small shipyards, the one in Marinette, 
one in Mobile, they may not. And, in fact, I think the 
likelihood is at least one of them won't survive that, and we 
are already concerned on this committee about loss of 
shipyards.
    So we have already had this discussion; I am not trying to 
beat a dead horse. But I think what you and I have said to one 
another, and I want to say it publicly here, is that we are a 
team. But we have got to have better communication as a team if 
we ever want to get through this. We are going to have to work 
together, because we are not going to get there the way we are 
going. We are going to have to make some change here to get 
there.
    I am committed--I think everybody on this committee is 
committed to working with you all to make it happen, but one 
ship is not going to do it, I think that is pretty clear. How 
we get from here to that frigate competition next year is going 
to take some really smart people, hard thinking, but teamwork.
    And I just want to tell you and Admiral Merz, you heard me 
yesterday, that I am committed to working with you gentlemen, 
trying to find something that makes sense.
    Admiral Merz, did you want to say something in response to 
that?
    Admiral Merz. Yes, sir. Thanks for the question. And I 
think you are getting to the heart of the matter on one of the 
central themes of the shipbuilding plan. First being, we have 
to provide a balanced Navy. And with that, we are unlikely to 
ask for ships above our requirement. However, the second theme 
is the industrial base, which we have never called out 
specifically as a key theme to the shipbuilding plan. We even 
used the term, our 12th man, as we go forward.
    We went to the effort, within the shipbuilding plan, to 
capture unused capacity in the shipyards. So although I am 
limited by my validated requirement, I think we have set the 
environment in the shipbuilding plan to have the discussion. 
After that requirement is met, how do we work together with 
Congress to preserve the industrial base?
    This is a very historically based shipbuilding plan. We 
went back to 1955 to track essentially the characteristics of 
shipbuilding over that timeframe, and it was a wild ride for 
industry, marked by significant boom and bust periods. And 
every time we went through that cycle, we lost shipyards. We 
are convinced that we will lose shipyards again if we go 
through that cycle.
    So with that said, the shipyards are worth saving. We need 
to work with Congress on the best strategy to do that, while 
maintaining our balance across the other two key elements of 
the Navy, which is the readiness accounts, operating the ships 
and sailors out there today, which we have had some significant 
operational challenges, as you know, and then the advanced 
capability. We cannot grow the Navy quickly, but we can 
certainly turn advanced capability on the Navy we have to make 
it fight more lethally.
    All those dynamics together, I think working with you, 
there are options for your shipyard.
    Mr. Byrne. Well, Admiral, my time is up, but I think I can 
speak for the committee, and say, we are not going to do 
anything that is going to hurt readiness for the Navy. But I 
think the committee is also committed to making sure we take 
care of the industrial base. So we look forward to working with 
you. With that, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Byrne, I appreciate it. We will 
now go to Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman. And this question is 
for you, Mr. Secretary--Assistant Secretary. We talk a lot of 
about using resources wisely, about making investments up front 
that will pay off in the long run. When it comes to 
shipbuilding, it seems to me that digit--here we go--digitation 
of blueprints, for example, and related technologies like 3D 
modeling and augmented reality have the potential to deliver 
significant efficiencies and cost savings during both 
acquisition and sustainment.
    Can you please speak to the value of digital in 
shipbuilding. Could expanding the use of these technologies 
help us more swiftly reach our goal of 355 battle force ships, 
and more effectively sustain that force?
    Secretary Geurts. Yes, sir. Great question. And, you know, 
as I have taken on this new role, some folks have kind of 
coined my approach as 3D approach, right? So one is 
decentralize. How do we get the bureaucracy to operate at 
speed. Differentiate. So how do we move those things fast that 
need to go fast; move those things that need to be a little bit 
more precise at a precise speed. And my third is digitization. 
And for the first time----
    Mr. McEachin. You said that so well.
    Secretary Geurts. Yeah. For the first time, we have got a 
nuclear submarine and a nuclear carrier built in the digital 
environment. And in recent visits I have had with the Secretary 
down to Newport News looking at that aircraft carrier, and what 
you could do, starting with digital, I think is going to be one 
of the fundamental things that allows us to drive cost out of 
these programs.
    And what is also very interesting is--you would think it 
would be just--the new generation would be excited about 
digital, what is interesting there is you see, you know, age--
you know, folks that have been in the shipyard 20-30 years, you 
hand them these new tools, and they are coming up with ways to 
do things at a tenth of the time by using virtual reality to 
understand where the pipes are they need to inspect, or where 
the welds they need to go look at, how do they schedule the 
work better.
    I think it is going to be one of the founding things we are 
going to pivot on to really drive cost out. Again, I think that 
the 355 plan shows us the way there. It has got some 
limitations of funding. So as we can reduce the cost to 
product, that will also allow us to accelerate into that plan.
    Mr. McEachin. So are there steps Congress can take, 
investments we can make, or authorities that we can provide to 
encourage greater use of these technologies?
    Secretary Geurts. Sir, I would say, some of the work that 
Representative Courtney has done on the submarine fleet where 
we have looked at investing, let's say, in the Columbia 
program, and putting some advanced procurement or economic 
order quantity funds early in the program that lets us explore 
some of those tools early so we can use them in the program, 
that is very useful.
    Quite frankly, having a shipyard plan that shows serial 
production and gives the industry confidence that we are going 
to continue to build, allows them to make investment decisions 
that bring that digital environment in much more quickly than 
if the government funded it. And then on our side, on the 
government side, we need to do work to understand how do we use 
those digital tools to certify work more quickly, make sure we 
can sign off on things more quickly.
    So I don't think--I think general support is key to that. I 
think helping us get a serial production flow in the 
shipbuilding plan is key because that will then show industry 
the return on investment for those digital investments early on 
that will pay off through the rest of the program.
    Mr. McEachin. Thank you. And thank you, Mr. Chairman, I 
yield back.
    Mr. Wittman. Thank you, Mr. McEachin. We will now go to Mr. 
Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here. Secretary Geurts, you have my former chief of 
staff, Joe Casper, is working for you. And I would say, put him 
to good use, knocking bureaucratic heads together. He is good 
for cutting through the baloney, you know, and put him to use.
    Secretary Geurts. Yes, sir. We are loading him up.
    Mr. Hunter. Great guy. I want to start by talking about 
icebreakers. I know the RFR [request for review] went out last 
week, and basically what I would like to do is talk about 
getting funding out of the SCN [Shipbuilding and Conversion, 
Navy] so it is not just in there, so that takes away the Navy 
having other people impede upon its accounts and its 
shipbuilding. The Coast Guard probably cannot build three to 
six heavy icebreakers, that is not what they do, that is not 
what they are good at. And they have to go through Homeland 
Security acquisition and procurement, which is ridiculous.
    If you talk about weaponizing them, or at least preparing 
them for weaponization, which the Commandant of the Coast Guard 
has talked about, going from double hull to single hull and 
doing block buys. Your comments on any and all of those, or any 
other way to do it quicker and faster?
    Secretary Geurts. Yes, sir. I think this is a great example 
of us and the Coast Guard working very closely together. We 
have got MOUs [memorandums of understanding], we actually have 
a joint team. So the Coast Guard has lead, we have put that 
joint team together with Navy experts working full-time on 
that. I think in the 2019 PB, the budget has actually been laid 
into the DHS [Department of Homeland Security] budget. And so 
for the first time, they have got to budget in their portion of 
the 2019 budget to finish out that first icebreaker, so I 
believe that is on track.
    And then to your point, I think, you know, again, we are 
going to share all our lessons learned, everything we have in 
the kit bag about block buys, or multiyear buys, or how to rig 
for serial production, assuming success in this first 
icebreaker, as we have got it underway.
    Mr. Hunter. We set up that joint program office last year 
for this exact thing. But the key was to have the Navy keep 
control in a way, have the Coast Guard build the requirements, 
and the Navy, too, but again, if you leave this in the Coast 
Guard's hand, they are not as adept at building big ships and 
bending heavy steel as the Navy is. So we want to just make 
sure that that stays on track.
    To surface combatants, one easy way that I see to get the 
numbers up is to diversify the fleet, keep on building the big 
items that you need, the carriers, the subs, but also, look to, 
like, the FRCs [fast response cutters], the FRCs that are being 
built in Louisiana, weaponizing those, the offshore patrol 
cutters. There is different things out there. When you talk 
about Marinette and other small shipyards, simply transitioning 
to the--the NSC, the national security cutter, is a great small 
craft that the Navy could use. In my opinion, it would be a 
better LCS than the LCS. But you have things like that where 
you can stay hot and switch to those quickly, and use more 
small surface combatants.
    It seems like right now in the Navy, it would be like the 
Army and Marine Corps saying, we are only going to focus on 
peer threats, we are not going to do any--no more force, no 
more MARSOC [Marine Special Operations Command], no more 
special operations, we are just going to build these big things 
and have tanks, and people that know how to fight at the 
battalion level and higher, as opposed to small unit fighting 
which we do, too. We have to do it all. And the Navy is going 
to have to do it all, and it is way cheaper, and you get those 
numbers up way faster if you use the smaller, medium-sized 
ships that can now be weaponized that have digital, and that 
have great defense systems where you offset the actual size of 
it. So I would ask your comments on those, Admiral and Mr. 
Secretary.
    Secretary Geurts. Yes, sure. Maybe I will just talk a 
little industrial base, and certainly admiral can talk. You 
know, we talk a lot about the larger industrial base. I guess I 
would also say we are doing specific things to preserve the 
mid-tier industrial base as well as the small-business 
industrial base. So we will have a number of awards this year 
with small business, building--again, smaller vessels, but they 
will have full-up capability there. So, to your point, there is 
great industrial base across.
    And the other piece that is critical, and we see it 
particularly on the nuke [nuclear] side, but it is critical 
across everything, is the supplier base. And so we are also not 
just looking at end item, but supplier base. So when we think 
the whole industrial base, we think all the way through that: 
big yards, mid-tier yards, small yards, and supplier base. But 
I will turn to Admiral Merz on the kind of requirement----
    Mr. Hunter. Typically to diversification?
    Secretary Geurts. Yes.
    Mr. Hunter. Looking at the Navy outside the box a little 
bit and say, we can change the way we do things to meet the 
threats that we see in the world.
    Admiral Merz. Yes, sir. Congressman Hunter, as a native San 
Diegan, I am happy to see you here. I will tell you, there is 
also--there are two things mentioned in the shipbuilding plan 
that we didn't give a lot of press to because we are working on 
it pretty hard. One is the surface capability evolution plan, 
it is mentioned in the same paragraph as the tactical submarine 
evolution plan, and there is a small paragraph on unmanned 
systems. These are actually connected to your question, as we 
are trying to expand the capability of the ships that fall 
outside the 355-ship battle force Navy, that are enablers or 
key elements of specific mission sets, mine warfare, underwater 
search.
    So we do have--we have three efforts underway in the 
unmanned surface vehicle area that are varying sizes. And we 
are also starting to do studies on optionally manned smaller 
combatants. I think this is all going to start playing out 
fairly quickly over the next couple of shipbuilding plans as we 
expand the envelope of the yard as possible.
    Mr. Hunter. Thank you very much. My time is expired. You 
have the Sea Hunter in San Diego, in Point Loma, which is 
really interesting. Thank you, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Hunter. I want to mention, too, 
I think it was very important last year that this committee, as 
well as the full committee, really worked hard on integrating 
the different elements of title 1, title 10, to make sure that 
we have a solid track on how to make sure we build icebreakers. 
I think there is unanimity across folks here to make sure we 
get those things built. There is $700 million in this year's 
President's budget for building icebreakers, and I think that 
we are well underway with this, and Mr. Hunter, thank you for 
all of your efforts.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for your 
service and for being with us to testifying today. I want to 
ask you about the Conventional Prompt Strike [CPS] program. 
And, as you know, prior to fiscal year 2019, it was funded 
through the defense-wide research and development funding, and 
then going forward now in the budget request, the Navy has been 
assigned the lead development efforts in the future.
    Because the CPS has--I am just beginning to understand--has 
potential for miscalculation, what capabilities is this 
designed to replace, and what new capabilities will it achieve?
    Admiral Merz. Yes, ma'am. So the Conventional Prompt Strike 
is a new capability. The specific capabilities within--in the 
flight profiles, that is all classified, but I am happy to set 
up a separate brief for you that addresses those elements.
    This has been a developmental effort under the Secretary of 
Defense. The PRES BUD 2019 has directed it to transition to the 
Navy, so we are at the point now where we are intending to 
operationalize it with a platform at sea. Whether it is a 
submarine or surface ship or both, that is the work to be done.
    The funding for 2019 is really targeted just at the 
transition between Department of Defense down to the Department 
of the Navy. There's substantial money that comes with that in 
the follow-on years as we move it to an at-sea capability, 
which is the integration cost, the testing cost, but we have 
been involved with all the demonstrations up to this point. So 
we are well-suited and well-postured to take this program.
    So the intention right now is to establish a program 
manager, establish the program structure. So on time it 
transitions to Navy, and we are marching forward. And we do 
intend to provide a report to Congress on how that transition 
is going to look and what those capabilities are.
    Mrs. Davis. Okay. Thank you. It sounds like you are quite 
confident that you are at the position for moving forward with 
that?
    Secretary Geurts. Yes, ma'am. And as Admiral Merz said, as 
we kind of work through the details of the ``hows,'' we are 
happy to come brief you in more detail, both on the capability, 
and then on my side on the acquisition, how we are going to set 
that all up, for us to talk in more detail.
    Mrs. Davis. Thank you. I wonder if you could discuss a 
little bit more, maybe with specific examples of the Navy and 
Marine Corps collaboration with academia and universities? How 
is that, you know, in this very important time for key 
innovation, what is different?
    Secretary Geurts. So, ma'am, obviously, my time at Special 
Operations Command [SOCOM], that was one of our bread and 
butter was at close--getting the operator as close as we can to 
the academics, to the technologists, to the nontraditional 
suppliers.
    And so, you know, that is something I am going to help 
drive within the Department of the Navy, both from the basic 
research standpoint where there is always a close tie with 
academia. But, quite frankly, I think there is more opportunity 
for us in the experimentation and, you know, problem-solving, 
and then how do we rapidly introduce new technology.
    So that will be a theme. I might turn over to General Walsh 
because they have done some pretty amazing things, I would say, 
in the experimentation realm to bring that practical--get the 
Marine connected directly to the academics to see the problem 
up front.
    General Walsh. Thank you, sir. Ma'am, I would say--as Mr. 
Geurts said, trying to get the right team together. So as we 
look at a problem, we view the problem one way. But trying to 
bring in academia, our warfare centers, and I would also 
include industry into that, is a key part that there is a lot 
of people approach the problem differently.
    So the way we have kind of looked at a lot of this is lay 
the problem out there, not look at what capability we are 
trying to get, lay the problem out there for the--and academia 
has some very unique--you go school to school, university, you 
know, and you find unique capabilities that they have. And when 
we get them focused on the issues that we have, like we just 
did one with ship-to-shore maneuver, and got them--we have got 
them focused on unmanned systems. And those sort of things of 
bringing them in with the warfighter. And our Marine Corps 
warfighting lab is a very unique capability we have to 
connect----
    Mrs. Davis. Are there challenges with sharing in regard to 
that, and having, really, access to the advanced 
instrumentation?
    General Walsh. I don't think so. At the levels we typically 
try to work with them at, from a technology standpoint, 
research, information, trying to build a capability into the 
operational concept we are trying--at that level, I find it 
very easy and to bring them in, and the more we connect them to 
the warfighter, the more interested they are in helping to 
solve our problems.
    Secretary Geurts. Ma'am, just one other piece, again, some 
of my experience from the last 12 years at SOCOM, was as the 
military over time has gotten smaller, there is a larger 
percentage of the country that doesn't have the same touch with 
the military it once had, and so, what I found a lot of the 
time was, there was solutions to our problems we didn't know to 
ask for, and they had, you know, they had other ideas, we 
didn't even know we had the problem until we talked to them.
    So making that connection, you can really do that without 
having to worry too much about the classification piece, when 
you talk about it at the problem level as opposed to the 
specific technology level.
    Mrs. Davis. Thank you.
    Mr. Wittman. Thank you, Mrs. Davis. We will now go to Mr. 
Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. Thank you all, 
gentlemen, for being here today. Mr. Geurts, congratulations on 
this position, it is a critical one at a critical time, we are 
happy to see you there. I just would like to follow up on 
something my colleague, Mr. Byrne, said about this notion of 
spinning back up. For what it is worth, in my neck of the 
woods, there is no such thing.
    I mean, it is not as if that ship worker that gets laid 
off, if one of these shipyards goes under, can go down the 
street, we just don't have the same level of shipbuilding. So 
once you lose that guy who may have been educated through a 
partnership we have with Northeast Wisconsin Technical College, 
you are losing him or her for good. So spinning back up is not 
necessarily as easy as flipping a switch, for what it is worth.
    I think we all want the same thing, right? We want to, as 
you have laid out, preserve the defense industrial base, we 
want to make sure we have as robust of a competition for the 
frigate as humanly possible, learning lessons from the past 
mistakes that we have made, and also get to 355 in as 
expeditious but also sustainable of a manner as possible. And 
we stand ready to work with you on that.
    But I would like to zoom back out, and ask a little bit 
about--and we throw this 355 number around, but we sometimes 
forget that it came from a December 2016 Force Structure 
Assessment [FSA] of the previous administration. And since 
then, a lot has changed, right? We have a new President, we 
have a new National Security Strategy and National Defense 
Strategy, the big move of which is to prioritize great power 
competition or to suggest we need to deemphasize 
counterterrorism, and move towards a re-orientation on great 
power competition.
    I take my colleague Mr. Hunter's point that you don't want 
to neglect those missions. I just would add if we go with the 
cutter, then we are going from seven to five shipyards and we 
may have undermined the defense industrial base argument. That 
is neither here nor there. That is an argument for a different 
day.
    But given this change in our overall orientation, which has 
been met with sort of unanimous applause from the national 
security community, it strikes me as odd that we didn't look at 
that--that the 30-year shipbuilding plan, the new one, didn't 
go back and revisit the assumptions underpinning the 2016 FSA.
    So can you talk about the role that the National Defense 
Strategy played in crafting the 30-year shipbuilding plan?
    Secretary Geurts. Yes, sir. I will start quickly and then 
turn over to Admiral Merz. And, again, my comment on spin-up, I 
take your point, and I didn't--I certainly didn't mean that was 
a--you know, you can do it over a week, a month, or even a year 
in many cases, which again, is part of why, in our shipbuilding 
plan, the industrial base played such a prominent role in that 
plan.
    So, working together, we have got to figure out how to 
preserve critical skills, whether it is at public yards or 
private yards, so we have got the capacity.
    Mr. Gallagher. Perfect.
    Secretary Geurts. In terms of the 30-year shipbuilding 
plan, I will turn it over to Admiral Merz, and we can talk 
about that, recognizing that is a point-in-time living 
document, and Bill, if you want to share a little bit more, 
kind of what you think going forward.
    Admiral Merz. Yes, sir. I appreciate the question. Because 
this gets down to the fundamentals of the 355 and what 
constitutes it, which is essentially a requirements-based 
approach for each type of ship, add those all up and you get 
355.
    We intend to do another FSA with the new National Defense 
Strategy. There is this series of events that has to happen 
before we do the FSA, starting with the combatant commanders, 
all the way down to the defense planning guidance that leads us 
to the scenarios we need to plan for.
    We have done multiple studies on the architecture of the 
Navy and the size of the Navy. Every single one of them says we 
have to grow. And we have to grow with these fundamental types 
of ships. So we don't expect much of that to change with the 
next FSA. There may be some changes on the margin. There may be 
another number that we are shooting for, but it is going to be 
bigger than we are today. So we have to move out and we have to 
move out aggressively as we go forward.
    The small surface combatants, in particular, which is the 
area of concern for your shipyard, there was a lethality aspect 
of that that brought us to the mix between frigates and LCS. So 
we are definitely going to revisit on the next FSA based on the 
key elements of the National Defense Strategy. This will 
probably be done sometime over the next year, as soon as we 
can. We are eager to get this new FSA completed. But the 
undeniable fact is we still need to get bigger and still going 
to be some combination of these ships.
    Mr. Gallagher. You referenced sort of the multiple studies 
that have been done, and of the outside studies that we have 
commissioned, only one seems to have the same explicit focus on 
great power competition that the NDS has, they seem to mirror 
each other in that respect, and that is the CSBA [Center for 
Strategic and Budgetary Assessments] study. And in that, it 
calls for growing small surface combatants from 52 to 71, I 
believe, if I am getting that correct.
    Have you given any thoughts to--what role does that--sort 
of, the CSBA worldview play as you guys think about a new FSA. 
We are going crazy with these acronyms, by the way.
    Admiral Merz. Yes, sir. So the CSBA was one of the three 
initial studies we did. CSBA, the MITRE, and then the Navy FSA 
as we came through it. And the Navy FSA did use the great power 
competition approach also to determine the proper mix of ships.
    We are very focused on the small surface combatant. I don't 
expect that number to go down. I do expect maybe the 
composition to change, just based on lethality aspects driven 
by the National Defense Strategy, but there are a lot of--I am 
sure you can appreciate competing factors that go into that 
type of study, and we plan to initiate and complete that as 
soon as we can.
    Mr. Gallagher. Thank you, gentlemen. I am out of time.
    Mr. Wittman. Thank you, Mr. Gallagher. We will now go to 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And thank you to all 
of our witnesses for your testimony today and for your service 
to the country. So our competitors are steadily pursuing 
advanced capabilities and technologies, and I, too, believe we 
have to continue to invest in both research and development of 
advanced technologies and transitioning them as soon as 
possible to the warfighter.
    But, you know, it seems that both China and Russia continue 
to do just that. Last month, China appeared to mount an 
electromagnetic railgun onboard a new ship. And last week, 
Russia announced a, quote, ``invincible hypersonic cruise 
missile.'' So would you agree that hypersonic technology such 
as electromagnetic railgun have the potential to be game 
changing in the hands of our warfighters, helping the United 
States maintain its edge in this domain? And we research these 
technologies for some time, but at what point will the Navy 
transition them to the warfighter?
    Secretary Geurts. Yeah, maybe I will have the two gentlemen 
give the perspectives from the service, and then I will provide 
a kind of technology overlay on the how-and-when perspective.
    Mr. Langevin. Fair enough. Admiral.
    Admiral Merz. Yes, sir. Thank you, Congressman. And that 
just reminded me on my negligence to thank the committee on the 
hard work behind the scenes on the Bipartisan Budget Act that 
is probably going to get us finally on track to be able to 
pursue a lot of these advanced capabilities robustly, and for 
the greater Congress.
    Hypersonics and railgun are high-interest items for the 
Navy. We intend to do actually a 10-round-per-minute test of 
the railgun later on this year, and we have a series of 
hypersonic efforts underway. And, again, this is a little bit 
of a delicate discussion before I run off into the 
classification realm.
    So I am certainly happy to set up a classified brief for 
you, but I do believe they are game changers. This is the 
family of capabilities that we can get off of what we call the 
linear capability improvement and get into a geometric 
improvement with the existing platforms that we have today. So 
we are very excited and enthusiastic to field these 
capabilities as soon as we can in concert with growing the size 
of the Navy.
    General Walsh. If I could follow up with Admiral Merz. 
Interesting, his point that he brought up, was the ability to 
give us stability in the budget, and allowing us to be able to 
do that, because what we are seeing is that stability in the 
budget is allowing us to put the right S&T [science and 
technology] investments in where we need to go.
    We also see it helping industry understand that stability, 
and they are putting the right investment in there. So as we 
look at things like hypersonics, also I would throw in high-
velocity projectiles. Potentially game-changing investments and 
capabilities where we make that linear high-velocity learning 
and increase that will leap ahead of the threat, and in many 
ways, as the Cold War was, but we were able to invest our S&T 
or our industry research and development in the areas where we 
could leap ahead of the threat and stay ahead of the threat.
    The money that we are now seeing from a predictable budget 
that you are giving us is allowing us to invest in areas that 
are now starting to move very quickly and are going to give us 
that advantage into the future.
    Secretary Geurts. And, sir, maybe as one followup again, 
coming from my heritage at SOCOM. I am all about transition 
speed and taking what is good enough, getting it into the hands 
of the warfighter. And so as you are seeing now with lasers, I 
think you will see with some of these other areas, we are not 
going to wait until it is perfect before we go get it in an 
operational environment. We are fielding directed energy on a 
number of our systems in different phases. I am happy to run 
through that with you in more detail.
    But, you know, the way I see it is, we have got to grow 
both capacity--so we talked a lot about 355, but then how do we 
lay on top of that our ability to rapidly grow capability, a 
lot like the submarine force has done, so that you get an 
exponential growth in power, which is some combination of both 
of those.
    Mr. Langevin. So let me ask you this, and it dovetails into 
my first question. So the Laser Weapon System, LAWS, onboard 
USS Ponce has been a great success since it was installed in 
2014. In the fiscal year 2019 budget request, we have an 
additional opportunity to put the Laser Weapon System 
demonstrator onboard the USS Portland for a shipboard 
demonstration. However, I understand that this budget was 
constructed before we knew which ship technology this--which 
ship the technology would be placed on. So without additional 
funds in fiscal year 2019, what risks may befall this critical 
demonstration? Is this going to still be on track?
    Admiral Merz. No, sir. I think in the laser family, we are 
actually in pretty good shape. It was designated as an 
accelerated acquisition program by the Navy Board of Directors, 
so that means the Secretary of the Navy and representatives and 
the CNO [Chief of Naval Operations] both agreed that this is a 
CNO priority and we are moving forward on it.
    Portland was chosen simply because it is much more 
straightforward integration effort to test the technology. Long 
term, we are looking to bring this onto our combatants, 
integration is a little bit more complex and more expensive. So 
for testing out the demonstration, Portland is actually a very 
suitable platform to get this to sea first.
    Mr. Langevin. Thank you.
    Secretary Geurts. Sir, I would add for other direct energy 
systems, we are putting both first onshore and then on the DDGs 
[guided-missile destroyers]. So we are going to have a smaller 
60-kilowatt laser going on the DDGs. We have got optical 
dazzlers and whatnot going on the DDGs. So our whole approach 
is, I will say, a family approach. We are building the 
technology path, and then we are putting together systems as 
that technology matures, both onto the naval components as well 
as on the Marine Corps components as that technology is ready 
to go into the field.
    Mr. Langevin. Okay. Thank you. Just before you go back, I 
want to mention, I was out at Dahlgren and I was there for that 
first multishot test they did on the railgun, it was very--from 
everything I saw, it was very successful. I am anxious for them 
to get to that 10-multishot test. I just hope we are not going 
to let this technology sit on the shelf.
    If China is advancing this technology, we shouldn't be just 
looking at the projectile, but looking at this as a holistic 
system that we put on a ship at some point in the very near 
future. Okay. Thank you, Mr. Chairman, I will yield back.
    Mr. Wittman. Thank you, Mr. Langevin. We will now go to Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And, Admiral Merz, 
when you appeared before the Shipbuilding Caucus, again, you 
did a nice job of sort of explaining the 30-year shipbuilding 
plan, which again, as I mentioned in my opening remarks, I 
mean, if you do the math, it shows 335 by 2048. However, as you 
pointed out, there is sort of an optional sort of path that, I 
think, was sort of built into the system. Maybe you can talk 
about that a little bit.
    Admiral Merz. Yes, sir, I would be happy to. A lot of 
competing variables in the shipbuilding plan, and which I tried 
to frame in the brief discussion that we had at the 
Shipbuilding Caucus as we come through this. One of the 
dynamics we are challenged with is just beyond the Future Years 
Defense Plan [FYDP], is a massive period of retirements where I 
lose essentially 50 attack submarines and destroyers over about 
a 7-year period.
    Now, we are going to aggressively attack that with service 
life extensions to help smooth out that divot, but that will 
not get us to 355 any faster; it just smoothes the ramp. I 
really want everyone to focus on the shipbuilding plan as the 
opportunity to grow, which was the--which was the purpose of 
identifying the available industrial capacity. And as we take 
advantage of a steady funding stream over time, one of the key 
elements is incentivizing industry to invest also along with us 
so we can grow that unused capacity over time, and then 
obviously take advantage of it so we can get there faster.
    There was also the dynamic of overshoot. Although we want 
to get to 355 as soon as we can, we have to work closely with 
Congress on what do we do when we get there? If we get there 
very aggressively and stop, then we immediately create another 
bust period for industry, and with the fragility of the base 
now, very concerning for the Navy as we come through that.
    So we think we have options to get there much faster. We 
laid out a steady-state profile that took advantage of the 
resources we have, and that is simply projected out at the 2019 
level. We do know there are going to be additional builds 
outside the 5-year plan when Columbia class comes into serial 
production, another variable we will have to manage.
    But there are a couple ways to do that besides just 
additional resources. We discussed the audit. Well, one of the 
objectives of the audit is for some acquisition reform so we 
can get better with the money we have. We had to be very, very 
careful that we don't get complacent, just because the budget 
is growing, that business as usual is going to get us there. We 
know it is not. We know we are going to need more resources. 
Whether it is $26 billion per year or $26 to $30 billion a 
year, depending on what the challenges are beyond the FYDP, we 
attempted to capture that, but we do know it is looming out 
there, and we want to start the discussion now so it is not a 
panic today, and we can put strategies in place so we are ready 
for that extra load on the shipbuilding plan.
    So we know it is an unsatisfying ramp. But in the balance 
of the Navy, of our readiness and capability, we felt we have 
hit the mark on what we had to do to set a base profile that we 
cannot go below or we will not grow at all. And we have to 
protect that and then take advantage of any aggressive growth 
that we might be able to support with Congress' help going 
forward.
    One final piece to that is the operating cost of the Navy. 
So what you will see in the next shipbuilding plan is an 
appendix dedicated just to: Hey, this is what it is going to 
take to build a 355-ship Navy; this is what it is going to cost 
to operate that 355-ship Navy. And we are going to have to work 
closely with Congress to make sure that paces the delivery of 
the ships, and that is the personnel, that is the maintenance 
plans, the ordnance, et cetera.
    Does that----
    Mr. Courtney. It does. And, again, just to sort of 
complete, I think, the picture--I mean, literally, you had a 
visual aid as part of the shipbuilding plan which had the 
colored boxes and the white boxes. And, again, the white boxes 
are really where, again, you have these options that I think 
were specifically identified in terms of specific classes. 
Again, can you kind of just walk us through that?
    Admiral Merz. Yes, sir.
    So it is also important to understand, in that shipbuilding 
plan we are not talking in generalities, we are not talking in 
sand charts. Each one of those colored blocks is on the 30-year 
shipbuilding plan is, to the best of our ability, identifying a 
ship we need to buy in that year or in that timeframe. The 
white blocks on top of that do identify the capacities. So the 
goal is to not just fill in the white blocks but to create more 
white blocks that we can fill in. I will turn it over to 
Secretary Geurts.
    Secretary Geurts. Yeah. That was going to be my point. The 
white blocks are what we know today. That is not where I 
believe we are going to be 3, 4, 5 years down the road as we 
drive cost out of--you know, through serial production, drive 
cost out. And, quite frankly, as we get more efficient at 
building ships, we should, within the industrial base, create 
more opportunities as we go forward.
    So I look at--again, as Admiral Merz says, I look at that 
shipbuilding plan as the starting point. It is a framework we 
can all work from and at least start communicating. It will 
continue to move and adapt as I try and drive out cost in the 
back end of things. And as the operational commands here 
understand what do we need in the future, we have got it kind 
of binned, but there is a lot of thought going into what do we 
do next? We don't want to wait until we have a crisis to be 
thinking about what is next down the road in any of these ship 
classes.
    Mr. Courtney. So does--you know, pinpoint, you know, a 
couple of those white boxes, if I could for a minute, again in 
2022 and 2023, Virginia-class program, there are two white 
boxes, one--you know, one for each year. And so, you know, as 
we are in the midst of block five negotiation, which obviously 
extends through those 2022 and 2023, I guess, you know, I am 
trying to understand what is the signal that the Navy wants to 
send in terms of, you know, what--is it in tandem with what 
this subcommittee did last year, which is to authorize, you 
know, a bigger block buy than 10 subs? If you could sort of 
explain how that sort of, you know, fits into, again, the 
process that is underway right now.
    Secretary Geurts. Yes, sir. I would say, you know, there 
are a couple of critical things coming in front of us. Columbia 
is coming in front of it. As you know, that is going to--that 
is our number one program, and we have got to make sure we are 
ready for that.
    I think the good news is we have been working very close. 
Virginia has paved the way a lot of it. I mean, quite frankly, 
the authorities this committee and Congress has given us has 
really brought down the risk on that program. I mean we are 
saving over a billion dollars by continuous production there.
    As we look to the potential for filling in those white 
boxes, a key element is how do we both maintain and grow the 
supplier base and as well as facilities at the final assembly 
yards. But, quite frankly, supplier base. So we have had an 
activity where we look at all the suppliers between the Ford 
carriers, the Columbia, and Virginia to understand that supply 
base. And some of the things in 2018, those funds that you had 
identified, they are critical to get those suppliers up and 
ready and ramped up. We want to make sure they are healthy so 
they will be there and then, two, that they will be able to 
produce at the rates we need them to.
    And then, as we do a better job of synchronizing in 
maintenance availabilities in planning for maintenance and 
major repair, I think that will again give us a better 
composite picture so we can really understand our needs and 
then show industry, here's the predictable work that is coming 
so that they can do what industry does well. When they have 
predictable work that they can plan for, they can be very 
effective and efficient and make the investments now that will 
enable us to execute then.
    Mr. Courtney. Thank you to all the witnesses for really 
creating a great record today.
    And, with that, I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    Gentlemen, again, thanks for joining us today. Thanks so 
much for your perspective. I think it is extraordinarily 
important. As you all have pointed out, a tremendously 
challenging environment for us. I think we have our path laid 
out through both the National Security Strategy and National 
Defense Strategy. Food for thought: With a 30-year shipbuilding 
plan, Force Structure Assessment coming out, too, I think is 
also going to challenge all of us to make sure that we are on 
path to build a 355-ship Navy.
    I do want to drill down a little bit first with you, 
Lieutenant General Walsh. First of all, thanks so much for your 
diligence and all of your efforts in looking at surge sealift 
as a component of how the Marine Corps will pursue the fight 
when asked to do so. And I really appreciate all that you have 
done there to really understand that and look at that top to 
bottom.
    We understand that, you know, one of the important elements 
of being able to project power for the Marine Corps is the 
logistics associated with getting there and sustaining the 
fight. And I think you all have really laid that out well. One 
of the key components there that I think is concerning is surge 
sealift. You know, we have an RRF today, a Ready Reserve Fleet, 
that is 46 ships that average in age 43 years. Old ships, very 
challenging to maintain. In fact, by the end of this year, we 
will be the only country on the face of the Earth that will 
continue to maintain and operate steam plants in ships.
    Now, you know, old technology sometimes has an advantage. I 
would argue, in this case, it does not. So what we have got to 
look at is, how does that limitation straddle us in things like 
pursuing an operations plan [OPLAN]? General Dunford laid out--
said that the big challenge for executing the Korean Peninsula 
OPLAN is logistics and surge. So I want to ask you, from the 
Marine Corps standpoint, in looking at your part of that 
strategy and the mission that you will have to prosecute, how 
does this aging surge sealift affect you?
    Secondly, in looking at what is proposed by the Navy in 
decommissioning one of the two hospital ships, how does that 
affect you in your ability to respond to casualties in the 
battle situation where the Marines are going to be at the tip 
of the spear? And what risk does the Marine Corps take on with 
this antiquated and insufficient surge sealift force as well as 
taking away one of the hospital ships in a situation that I 
would argue would create a significant increase in casualties 
without that capacity there? So I want to get your perspective 
on that.
    General Walsh. Thanks, Mr. Chairman, for that question.
    You know, I think if you kind of look back, Admiral Merz 
talked about history and how we went back in the shipbuilding 
plan and looked at history. I think we have been here before 
with the Ready Reserve Force in the past. And I think we had 
some lessons learned from where we were after Desert Storm and 
how we fixed some of those problems going into OIF 1 [Operation 
Iraqi Freedom]. And the force continues to get old. I think, 
you know, if you look at our requirements, we have a two MEB 
[Marine expeditionary brigade] amphibious task force 
requirement which is very closely tied to our Maritime 
Prepositioning Squadron Force that we have got in Guam and 
Diego Garcia. That, along with our two MEBs that are from the 
Maritime Prepositioning Force, that surge sealift that you are 
talking about is--what we are seeing right now, is if we look 
at our contingency plans, our operational plans, that we are 
really kind of getting to that ragged edge of being able to 
support that, that we feel pretty tight with our MPSRON 
[Maritime Prepositioning Ship Squadron] supporting our--you 
know, our forward amphibious task force and that capability 
tied very close to that.
    But that assault follow-on capability, that flow-in force, 
or those surge forces that you read about in the NDS, I think 
that is that area where you talked about the age of the force 
is, I think, what we have got ourselves really concerned with. 
And taking a hard look at that within Admiral Merz and also 
over on the N4 side, I think that is going to take a lot of 
focus from both the Navy and the Marine Corps to be able to 
look at that long-term investment, because I think, right now, 
with the age of the force, right now, we are probably at a 
point where we can meet what we need, but it is slowly going to 
degrade over time. And with the average age of the ships that 
you just said, that probably, by the mid-2020s, we are not 
going to be able to meet the requirements we have got.
    On the side of the hospital ships, you talk about that. Two 
ships isn't a lot of ships. And that is a capability that I 
think that the Marines, certainly the sailors too that have 
deployed into Iraq and Afghanistan, they have learned a lot 
about the type of care that we are used to and accustomed to 
get and to survive on the battlefield. It is something that our 
Armed Forces have learned to say that we are going to be taken 
care of. And you could look back over a number of conflicts. 
And a lot of times, militaries have quit fighting because they 
didn't have the proper care to fight. And you could take a look 
at that in the past.
    So those hospital ships of having that capability that we 
are used to is a critical component of that, and I think it 
probably will take a deep look by the Navy and Marine Corps on 
what that real requirement is.
    And I would ask Admiral Merz if he has got anything to add 
to that.
    Mr. Wittman. Sure. Admiral Merz.
    Admiral Merz. Yes, sir.
    Thank you, Mr. Chairman.
    Thanks General Walsh.
    So this is an area we need to spend more work on. You know, 
today's force does meet the 15 million square foot lift 
requirement. However, as you said, it needs to be 
recapitalized. It needs to be aggressively recapitalized. So we 
exercise three levers to do that. We do service life extensions 
on the existing ships. So you are taking an old ship and trying 
to get it even older. Buy used, and I appreciate the authority 
we received to buy the foreign-built ships. We are also 
aggressively looking for U.S.-built ships. However, due to 
market dynamics of previous decades, there are just very few 
out there. And then, of course, the long-term recap plan of 
building new. And we are initiating an effort to see if we can 
accelerate the CHAMP, the common hull platform, that we will 
ultimately use to replace the lift fleet and some other 
capabilities, such as submarine tenders and command ships, and 
notwithstanding the hospital ship.
    We are going to have to do something with the hospital 
ship. The replacement is not ready, so we are evaluating what 
it would take to do a life extension on her. Her sister ship is 
in good shape. She will be around for quite a while. And there 
may be other opportunities to fill in the sea-based medical 
support that we need to provide. So we are casting a wide net 
on how to meet that specific capability. But the other three 
levers are what we are going to pull very firmly to move out on 
recapitalizing this force.
    Mr. Wittman. Very good. I appreciate your perspective on 
that. It is very tempting to only talk about what our Navy and 
Marine Corps need as far as warships. It is not in the 
headlines to say we need support ships and hospital ships. But 
I would argue, if history is any lesson to us, that the support 
element of the Navy is as critical as the warship component and 
especially in a contested environment today, which creates a 
whole other challenge for us, you know, making sure that we 
have a modernized sealift fleet is going to be key as well as--
and, General Walsh, I think you hit the nail on the head. And 
that is the expectation today for all of our fighters, whether 
they are soldiers, Marines, sailors, or airmen, is that we 
provide the best for them. What we do to train Navy corpsmen 
and Army medics, so on the battlefield they get the best, 
survivability rates have gone sky high. We see what happens in 
exercises for those great caregivers on the battlefield. They 
are pretty doggone efficient in making sure that men and women 
that are injured there survive. Having the conduit, so once we 
get them out of that battle space and make sure we support them 
on that hospital ship I argue is equally as important. It is 
also a measure of this Nation's commitment to taking care of 
them.
    So I would urge you, on the hospital ship side, to do 
everything we can. While that doesn't make the headlines as far 
as a shipbuilding number or an aircraft carrier or submarine, I 
would argue it is as, if not more, important as a measure of 
our Nation's commitment to the men and women that serve in 
uniform. It sends a signal, not just to them but their 
families, to say we are going to do everything we can. So I 
would urge you, with all due diligence, to make sure we take 
care of that, as well as the support that they need, because it 
is great to give them great training, but if they are out there 
at the tip of the spear, and, for the first 30 days, they have 
everything they need, but after that, things start to tail off, 
that really becomes an issue.
    And, Mr. Geurts, I know you know that being there in SOCOM. 
And sustainment for that--as you know, our special operators 
get a lot of what they need, but the key to their success is 
sustainment.
    So I don't know if you have anything that you want to add. 
I have been lecturing here for too long. So go ahead.
    Secretary Geurts. Sir, I completely agree with everything 
you said there. And it is something in this year's shipbuilding 
plan and our budget bill, we will look very closely at. But I 
completely agree with your perspective on the issues.
    General Walsh. Mr. Chairman, if I could, I just want to add 
to that piece is, you know, sometimes--I think Admiral Merz 
mentioned the sea base. And sometimes I think we look at a 
specific capability of how to replace that like one for one. 
But some of the things that we have looked at is like looking 
at the ESBs [Expeditionary Sea Base ships], which Congress has 
been very helpful with us in getting the afloat staging bases. 
And we have got [USS Lewis B.] Puller out right now in CENTCOM 
[U.S. Central Command]. But a lot of the modular capabilities 
to reconfigure packages, medical packages, to be able to go 
aboard those kinds of ships, there are lots of opportunities. 
When you talk about industrial base and continuing to build 
ships, that it isn't always build the exact same thing; it is, 
how do you repurpose what you already have? And I look at 
opportunities there in the ESBs along with the ESFs 
[Expeditionary Fast Transports], our joint high-speed vessels. 
Tremendous capacity and capability in both those ships to be 
able to use them for a lot of different reasons. And certainly 
on the medical side, it is very clear to bring packages onto 
there in an expeditionary way to give increased capacity.
    Mr. Wittman. I think that is a great point. And that 
provides a lot of flexibility to the force too, to be able to 
move and to surge medical capacity when necessary and do that 
pretty quickly. So I appreciate you looking outside the box 
from the existing platforms to leverage the other assets that 
are there.
    One element that I did want to get some additional 
reflection on, and then I will go back to our other members if 
they have any other questions, and that is in the shipbuilding 
plan both for our warships and our Ready Reserve Force, there 
is not an element of those plans that addresses attrition. We 
all know, in the great power competition, I suspect that there 
is going to be some attrition there. We talk about operating in 
contested space and looking at where we are. And, again, if 
history is any lesson to us, in a highly contested environment, 
we see what happens. So I would like to get your reflection on, 
how do we make sure we properly address attrition in all the 
elements of shipbuilding both in our warships and our Ready 
Reserve Force in making sure that we understand what the 
outcome would be in that situation?
    Secretary Geurts. Yes, sir.
    And Admiral Merz can cover how we think about it. But I 
would also broaden that thought at least in our thinking is, 
how do we think about resilience and not just in terms of 
attrition of the thing but in terms of cyber protection in all 
the other forms of resilience to include medical and all that. 
So I think our thinking is resilience in the broader sense, not 
just in the attrition in a kinetic sense.
    I will turn to Admiral Merz to talk about that element 
specifically. I just want to let you know: We are thinking of 
resilience both from a network, from a cyber, from people 
perspective, not just a platform perspective.
    And, Bill, I don't know if you want to share on the plan 
itself.
    Admiral Merz. Thanks, Mr. Chairman. Great point.
    So the battle force ships, the 355 actually do account for 
attrition. The Ready Reserve Force does not. So, as we come out 
of this era of very compressed requirements, where we would 
shift the attrition is to more risk. So this will give us the 
opportunity to reevaluate those assumptions and then re-vet the 
requirements behind them. So work to be done there. Very 
insightful question on how we approach this. But you are 
exactly right. This is warfare. It is only fair they shoot at 
us. And there may be some success there that we have to account 
for.
    Mr. Wittman. Thank you.
    I want to go now to Mr. Hunter.
    Mr. Hunter. Thanks, Mr. Chairman, for your indulgence.
    By the way, General McDew is bringing that end of it. He is 
calculating attrition, trying to for the first time ever, which 
is crazy.
    About 8 years ago--this just kind of blew my mind. I was 
looking at the transcripts going back to this same hearing 
going back 8 or 9 years. We would spend a quarter of the 
hearing talking about AAVs [Amphibious Assault Vehicles], or 
expeditionary fighting vehicles. And I remember when General 
Dunford--he might have been a lieutenant general at that point. 
I forget which star he skipped, at what point. But he came up, 
and he said: This is the Marine Corps' number one thing. It is 
the Navy's number one thing, ship to shore. General Neller has 
put out ``fight to get to the fight.'' How do we do it? That 
was one of his directives.
    We didn't talk about it at all today. I just kind of caught 
that as we are sitting here. I have seen the prototypes that 
MCCDC [Marine Corps Combat Development Command] is looking at, 
and I am sure the Navy is looking at stuff too.
    So what is your--we didn't bring it up. So is it no longer 
a big deal? Have we figured that out so well that we are just 
good on it, or we have admitted that we can't do it anymore in 
terms of anti-access/area denial? Is that an admittance of 
ours, or we are just working it behind the scenes and it is a 
secret?
    General Walsh. I will start and then turn it over to 
Admiral Merz.
    We are working it very hard behind the scene. And it is 
probably our highest priority because, as you know better than 
anybody, Congressman, where we have been focused in Iraq and 
Afghanistan and where that is now with the clear guidance we 
have got in the National Defense Strategy to focus on peer 
competition, that is a completely different game than we have 
been dealing with for a long time.
    So, as we look at that, as a force that does--concentrates 
on the threat and a threat that deals with our concepts in a 
concepts-based requirement system, dealing with that threat as 
we look at that, and we get questioned all the time, and a lot 
of it by smart congressional professional staff members asking 
us, how are you going to operate in this contested environment? 
And we have been working this problem very hard with the Navy 
at all levels from the Commandant and the CNO on down all the 
way out into the operating forces. A lot of work done on our 
concepts. Littoral operations in a contested environment, 
distributed maritime operations, expeditionary advanced base 
operations, all of those, I would say, have done multiple war 
games on how we are going to conduct those operations, along 
with the fleet exercises that Congressman Wittman mentioned, 
Bold Alligator and Dawn Blitz. One of the other things that we 
did out at Camp Pendleton, out in your neck of the woods, last 
year, we conducted a ship-to-shore maneuver task force advanced 
naval technology experiment. Going back to that problem-
solving, bringing everybody in from industry, the warfare 
centers, and going, how are we going to get ashore differently 
in the future than we have done in the past?
    We had written concepts, our Marine Corps operating 
concept. We had a video on that that showed a lot of unmanned 
systems, sensing, pulsing, deception to get ashore differently. 
Different types of maneuver than we have ever done in the past. 
When we did that exercise out in Camp Pendleton, probably the 
first 15 to 20 minutes was all unmanned systems coming ashore 
in advance, sensing the environment, deceiving in the 
environment, and going where the enemy is not. So a lot of 
effort is going into this. We are spending an awful lot of time 
with the Navy working this hard. We see it as a long-term 
problem, but we are getting after it very hard to determine how 
we are going to do this differently. It is not going to be how 
we did it at Iwo Jima or Incheon or some of the other exercises 
we have done in the past. This is going to be a completely 
different operation that is really going to rely on the joint 
force and certainly the naval force. I think too many times 
folks look at the amphib [amphibious] force, and how are we 
going to do this as an amphib force? It is not. It is a naval 
campaign, just like it was in other contested environments 
where we have been in the past where we need submarines, we 
need cruisers and destroyers, we need carriers that are out 
there supporting us.
    So I think that is a key part of we are part of the 
problem. We are helping to solve the problem as part of that. 
And that is why I think we are so focused on the sea control. 
As General Neller says, we have to fight to get to the fight. 
We bring a lot of capabilities with F-35s on big deck amphibs 
and a lot of other capabilities, and how do we contribute to 
that naval campaign of getting to the fight in the sea control/
sea denial mission that we are being tasked to do.
    Admiral Merz. Yes, sir. So this--a lot of effort going on 
in this area. And this is where the details of the shipbuilding 
plan are very important. So, when you look at the amphib line, 
it appears to be one of the lines that is closest to its 
requirement, which naturally has us focus more on the 
destroyers and the attack submarines, which are quite a 
distance from their requirement. The problem with the amphib, 
it is not the correct mix of amphibs that we need for the 
lethality standpoint. So we have put a lot of effort into the 
LX(R) [dock landing ship replacement] on what those 
capabilities will mean to the Navy and the Marine Corps. And 
Secretary Geurts will attest that we dug in pretty firmly on 
surrendering any of those capabilities before we set the--sent 
it out for competition.
    There is also the ship-to-shore connector piece to this, 
the LCAC [Landing Craft Air Cushion] replacement, that, a year 
ago, I would tell you we were in a crisis with that program. 
But, again, thanks to the increased top line, we are able to 
shore that program up, competed very well against--even though 
it is not an accountable ship in a 355, as Chairman Wittman 
said, we have this whole family of enablers underneath it that 
have to be tended to, and that was one of them.
    And then, of course, I certainly agree with General Walsh 
on the whole unmanned side of that. And then there is the whole 
mine warfare piece to that where the threat is much easier to 
advance ahead of the ability to counter that threat. A lot of 
work going on in there as well.
    General Walsh. If I could just follow up with one point is, 
you know, over the last few years, we focused on readiness. Are 
the shipyards manned correctly for maintenance to get the 
wholeness of the ships we need? Are they coming in on time? Are 
we pulling them out? We focused on the Optimized Fleet Response 
Plan. Doing much better at that. We then focused on capacity. I 
think this shipbuilding plan starts moving us in the right 
direction in capacity.
    From an amphib side, I would say the next thing that we 
have got to really focus on from our side is along with the 
other battle force ships is capability on those ships. So for 
us to be able to stand in and operate in a contested 
environment, those ships need to be part of that battle force. 
So we start talking about ability to detect, control, engage, 
self-defense capabilities, strike and missile defense 
capabilities. When you start bringing a fifth-generation 
capability into that amphibious task force, we need the same 
type of capabilities to be able to operate within that battle 
force and be able to network into the fleet tactical grid just 
like those other ships do.
    Mr. Wittman. Very good. Thank you, Mr. Hunter.
    Gentlemen, thanks again. This was a great and exhaustive 
addressing of the challenges that we face. As you have heard 
from other members, this is a team effort. It is a bipartisan 
effort, bicameral effort to make sure we get our Navy-Marine 
Corps team where they need to be. The Secretary of Defense I 
think has laid out very eloquently where we are today in the 
era of great power competition.
    And I will close with this, with the words of a former 
Admiral of the Navy, David Farragut, there at the Battle of 
Mobile Bay: Gentlemen, damn the torpedoes; full speed ahead.
    Thank you. With that, we adjourn.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                             March 6, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2018

=======================================================================
   
     

                   QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Hunter. Currently, we have 30 amphibious ships and the USMC 
requirement is 38. Would it be helpful to accelerate production of a 
large deck amphib ship in 2019? Along the same vein, the production 
line for the LPD is hot and if we wait until 2020 for continued 
production and skip a year of production, what would be the 
implications to the Marine Corps?
    Secretary Geurts and Admiral Merz. The President's FY 2019 Budget 
(PB19) request reflects the Navy's balanced approach to responsibly 
grow the size of the Fleet consistent with the National Defense 
Strategy and the Navy the Nation Needs. If additional funding was 
available within the Future Years Defense Program (FYDP), the Navy 
would evaluate our overarching shipbuilding requirements, including 
accelerating LHA 9 to a FY 2021 procurement, with advance procurement 
(AP) in FY 2020. By accelerating LHA 9 to FY 2021 and procuring follow-
on ships on four-year centers, the Navy could take advantage of the 
efficiencies and related cost avoidance inherent in maintaining an 
active and stable industrial base for the amphibious fleet, while 
mitigating the large deck amphibious ship capability gap in FY 2029. In 
comparison, accelerating LHA 9 to a FY 2019 procurement (or FY 2020 
procurement with AP in FY 2019) provides for only marginal acceleration 
of LHA 9's delivery date, while introducing inefficiencies that reduce 
the cost savings that would be achieved. The FY 2018 Omnibus 
Appropriations Act accelerates procurement of the LPD Flt II lead ship 
from FY 2020 to FY 2018. The lead LPD Flt II ship will deliver in time 
to replace LSD 43 prior to decommissioning and maintain the requirement 
for 13 LSD/LPD Flt II ships
    Mr. Hunter. How does our Navy/Marine Corps team answer General 
Neller's directive to prepare to ``fight to get to the fight'' in high-
end littoral warfare?
    Secretary Geurts, General Walsh, and Admiral Merz. Within the 2018 
National Defense Strategy and Defense Planning Guidance (NDS/DPG) 
framework, the Marine Corps will actively contribute to naval maritime 
security operations and enhance deployment and employment options for 
power projection. Tactically distributed, operationally synchronized, 
and strategically linked scalable Marine Air-Ground Task Forces 
(MAGTFs), will operate as contact and blunt forces, ranging in size 
from Special Operations Force and platoon sized detachments, company 
landing teams, task-sized Special Purpose MAGTFs, and Marine 
Expeditionary Units operating afloat and ashore. In support of Advance 
Naval Task Force operations--persistent, resilient, and versatile 
forward postured and engaged contact and blunt forces will retain the 
ability to aggregate and interoperate with other globally sourced force 
elements including Marine Expeditionary Brigades, Marine Expeditionary 
Forces, and other Naval Fleet-Level surge forces capable of conducting 
crisis/contingency operations, and assume expanded roles and tasks in 
order to enable freedom of action through simultaneous sea control/
denial and power projection afloat or ashore. Additionally, our posture 
and pace of modernization must improve. Legacy warships, connectors, 
and associated platforms and vessels must be modernized and 
operationally sustained, as new platforms are designed and constructed 
with capabilities that improve global coverage, persistent and 
resilient forward presence, credible crisis/contingency response 
capability--all through an integrated C2 network to ensure seabased 
forces are most ready to engage and succeed at the time and place of 
our choosing despite our adversary's attempts to deny and defeat our 
actions. As stated by CNO, there are three ways America can increase 
naval power and provide the Navy the Nation Needs (NNN): ``1) Increase 
number of platforms; 2) Increase capability of each platform; and 3) 
Networked platforms.'' Within the context of the NDS, DPG and the NNN, 
there are key actions critical to achieve an integrated and 
``balanced'' next generation maritime expeditionary warfare capability. 
The Navy and Marine Corps are actively pursuing key capabilities and 
capacities that will achieve our strategic to tactical force objectives 
and tasks. Perhaps the most critical action is renewed investment in 
emerging technologies that will deliver the capabilities needed of 
amphibious forces for decades to come. Therefore, we must move forward 
in evolving and transitioning capabilities across USMC organizations, 
equipment, and training, thus increasing the agility and lethality of 
our MAGTFs, Naval Task Forces, and the Joint Force in support of global 
operations.
    Mr. Hunter. Will there be funds to research and develop a truly 
amphibious vehicle that is armored and will be able to:
    1. Travel more than 200+ nmi at 40kt?
    2. Carry in excess of 25 long tons or 30 troops?
    3. Fight in High-End Littoral Combat against enemy naval vessels as 
well as it does on land against an armored enemy?
    4. Organically produce 10 MW of electrical power for use in 
emergencies?
    5. Carry its own Material Handling Equipment (MHE) to move shipping 
containers off the beach to where they are needed inland?
    6. Reconfigure its payload to switch in minutes between an 
ambulance, mobile artillery platform, troop carrier, communications 
hub, AGM-176 missile platform or water purification station?
    Secretary Geurts, General Walsh, and Admiral Merz. The Office of 
Naval Research continues to fund research into meeting the challenges 
of high speed ship to shore movement. The specific challenges 
associated with building a vehicle that can meet all the requirements 
listed are well documented. HWS capabilities also continue to be 
studied by numerous agencies to include the Marine Corps Warfighting 
Lab, naval warfare centers, research institutions, and foreign 
services. The Marine Corps remains highly interested in the results of 
this work and remains committed to the best solutions that are timely 
and affordable. Near term, we are searching for ``bridge'' capabilities 
such as modifications to current connectors, development of new 
connectors, and add-on materials that enable current and emerging 
vehicles such as ACV to move to shore faster and from greater 
distances.
    Mr. Hunter. General, I would like to ask you about non-traditional 
ships like the Expeditionary Sea Base (ESB), Expeditionary Transfer 
Dock (ESD), and Expeditionary Fast Transport (EPF)s. Can you briefly 
describe how the Marines are using these new ships in the CENTCOM AOR 
and some of the lessons learned, and are they a replacement for 
Amphibs?
    General Walsh. The competitive global demand for forward deployed 
MAGTFs exceeds our ability to sea base all of those forces on 
amphibious warships. In some instances we are forced to rely on shore-
based MAGTFs that lack the advantages resident in shipborne formations. 
We have also used non-traditional ships from the Maritime 
Prepositioning Force and the auxiliary inventory to deploy Marines in 
support of theater security cooperation missions and other limited 
threat engagements. Select ``non-traditional'' platforms have been and 
are currently providing support to special and conventional force 
operations afloat with policy, doctrine and concepts in place. T-ESB 3 
is assigned to 5th Fleet and has been tasked to compliment the forward 
deployed ARG/MEU, serving as an Afloat Forward Staging Base (AFSB) to 
support SOF and Marine Forces. We are learning this model has the 
potential to be duplicated in other geographic areas where combatant 
warships provide protection for the entire at-sea formation. T-ESB 4 
recently delivered and is completing acceptance trials. T-ESB 5 is 
under construction Seven T-EPF's are assigned around the globe to 
Geographic Combatant Commanders and are being used for point to point 
inter-theater lift and contact layer activities. We are gathering the 
information on operational usage and applying those lessons to enhance 
the capability of future vessels. The EPF in 5th Fleet also has been 
tasked to complement the forward deployed ARG/MEU. T-ESD 1 and 2 are 
assigned to the Maritime Prepositioning Force and are being used as at-
sea piers in the PACOM area of operations supporting sea-based transfer 
of equipment and sustainment for movement ashore. No less than 38 
amphibious warships are required to support high impact contingency 
response operations. To meet global demand we will continue to use both 
traditional (amphibious warships) and non-traditional (MPF/auxiliary) 
ships. Operational Platform Distinctions: The Navy and industry are 
building and delivering versatile, interoperable warfighting platforms 
capable of going into harm's way while serving as the cornerstone of 
America's ability to extend seapower ashore. The capability of these 
ships is prized by Geographic Combatant Commanders because they can do 
everything from delivering aid to supporting forcible entry. We should 
continue our investment in the readiness, maintenance and construction 
of these platforms while we examine best practices to leverage the 
employment of auxiliary ships- those not built to combatant standards, 
but capable of enabling distributed sea-based littoral operations. We 
will continue to investigate enhancement for auxiliary platforms to 
improve lethality, agility, and resilience. These purpose built 
platforms can better complement amphibious warfare ships with increased 
surface, vertical and digital interoperability.
    Mr. Hunter. Currently, we have 30 amph ships and the USMC 
requirement is 38. Would it be helpful to accelerate production of a 
large deck amph ship in 2019?
    Along the same vein, the production line for the LPD is hot and if 
we wait until 2020 for continued production and skip a year of 
production, what would be the implications to the Marine Corps?
    General Walsh. Yes. Current Amphibious Warship Inventory is 32 (9 
LH/11 LPD/12 LSD) Congress has generously helped accelerate ship 
building with passage of the Consolidated Appropriations Act. The 
procurement of LPD 30 will speed a much needed capability to the fleet 
and increase our battle force inventory. LPD 30 in FY18, plus the build 
profile for LPDs' in the long range shipbuilding strategy, will ensure 
delivery of extremely capable multi-purpose ships to replace the aging 
LSD inventory. The Navy realizes to achieve today's warfighting 
requirement in three decades, represents an unacceptable pace in the 
context of the current and predicted security environment. By setting 
the conditions for an enduring industrial base as a top priority, we 
are postured to aggressively respond to more investment in any year, 
which if received in all years could attain the needed naval 
battleforce target of 355 ships as early as the 2030s--balanced, 
credible and sustainable--by leveraging all available tools for growing 
the force. In conjunction with pursuing required long-term, predictable 
funding, and in concert with the Secretary of Navy's business reform 
initiatives, the Navy continues to aggressively pursue acquisition 
strategies to build ships more quickly and more affordably.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. McEACHIN
    Mr. McEachin. Should the equipment and systems on the Future 
Frigate be able to survive engagements in a contested environment? 
Should the Future Frigate also contain equipment and systems able to 
operate over a long life-cycle with minimal need for repair and 
replacement? And should critical components like the power distribution 
system be ``hardened'' in order to operate in a combat environment?
    Secretary Geurts and Admiral Merz. The Guided Missile Frigate 
(FFG(X)) will include improved radar, combat systems, weapons, 
launchers, communications systems and countermeasures, and added 
capability in the Electromagnetic Maneuver Warfare mission area. The 
FFG(X) will be a multi-mission ship capable of operating independently 
or with aggregated groups of naval forces in contested environments in 
support of Distributed Maritime Operations. It will have the ability to 
protect itself and other surface units with improved air defense 
capability and will include shockhardening and redundancy for 
survivability. FFG(X) will also be built with service life allowances 
to support life-cycle sensor and lethality upgrades. Because FFG(X) is 
expected to have a service life of 25 + years, the Navy is pursuing 
systems and equipment that reduce ship life-cycle cost.
    Mr. McEachin. Hybrid Electric Drive systems have been integrated on 
various naval platforms, significantly decreasing fuel consumption 
while maintaining impressive operating ranges. Additionally, these 
hybrid drive systems are much quieter than conventional propulsion 
drives, resulting in a safer platform in contested waters. Could you 
please outline for the committee the benefits that would be achieved 
from including Hybrid Electric Drive propulsion on the Future Frigate 
Program as compared to current legacy propulsion technologies?
    Secretary Geurts and Admiral Merz. With the Conceptual Design phase 
of the Frigate program in progress and a Detail Design and Construction 
competition planned for award in FY20, it would be inappropriate for 
the Navy to comment on advantages or disadvantages of systems that may 
be included in current proposals submitted by industry. The Navy is 
considering offeror designs that will meet the established requirements 
to include those with Hybrid Electric Drives. The Navy is however, 
evaluating Hybrid Electric Drive (HED) on an Arleigh Burke Class 
Destroyer (USS TRUXTON), to assess the viability in an operational 
environment in order to inform the Navy's longer term commitment.
    Mr. McEachin. Should the equipment and systems on the Future 
Frigate be able to survive engagements in a contested environment? 
Should the Future Frigate also contain equipment and systems able to 
operate over a long life-cycle with minimal need for repair and 
replacement? And should critical components like the power distribution 
system be ``hardened'' in order to operate in a combat environment?
    General Walsh. I defer to the Navy as the Future Frigate is their 
program.
    Mr. McEachin. Hybrid Electric Drive systems have been integrated on 
various naval platforms, significantly decreasing fuel consumption 
while maintaining impressive operating ranges. Additionally, these 
hybrid drive systems are much quieter than conventional propulsion 
drives, resulting in a safer platform in contested waters. Could you 
please outline for the committee the benefits that would be achieved 
from including Hybrid Electric Drive propulsion on the Future Frigate 
Program as compared to current legacy propulsion technologies?
    General Walsh. I defer to the Navy as the Future Frigate is their 
program.

                                  [all]
</pre></body></html>
